EXHIBIT D
AOC-E-035 WarCode: WA i ¢ Case Number:
Rev. 01-08 County:
Commonwealth of Kentucky Hy ~ ‘ Court:

WEBSTER
DISTRICT COURT

Re ncnob t : ‘ i } Warrant Number; £11710002716430
‘ \ be Generated: 24/2017 11:40:31PM

Warrant of Arrest
Complaint Warrant

 

Plaintiff. COMMONWEALTH VS. Tyslen Jamar Beker Defendant

TO ALL PEACE OFFICERS IN THE COMMONWEALTH OF KENTUCKY: You are commanded to arrest the
person named below and bring him/her forthwith before the WEBSTER COUNTY - DISTRICT COURT. If Court is not in session,
you shall deliver him/her to the Jaller af WEBSTER County.

Tyslen Jamar Baker

oer

Gonder Race “Date of Birth Height =| Weight "Operator Leanse# State

 
 

 

28031 514.110 M_~ RECEIVING STOLEN PROPERTY UfS00

(2 the cerendent may post bail In the amount of $ , secured by

D1 The defendant may not give bail.

Complaint 4 ‘

Larry Alar vine F = aoe Fe
The Affiant, ‘Alan King (PROVIDENCE POLICE DEPARTMENT 3962) , states that on 4/19/2015 in WEBSTER County, Kentucky,
the above.named defendant unlawtully: Recelving Stolen Property. On 04/19/2015 a Nextbook tablet, and several other lems were
taken from the residence at 601 St. Bemard Street in Providence, KY, The tablet turned up pawned at River City Pawn In
Madisonville, KY. An interview with the subject who pawned the tablet ravealed that the tablet was purchased in Madisonville, KY
from 8 Tyslen Baker. The stolen tablat was recovered from the pawn shop In Madisonville. .

EXECUTION

epeoue

CO Not executed because

Dated Ao eS .201Z

 

 

 

Electronically signed by Judge D-Heady on 1/24/201 7(@t 11-40:32M, ) Agency Local Code:

Data printed: Tuesday, January 24, 2017
IN THE

SUPREME COURT OF THE UNITED STATES

TYSLEN J. BAKER, PETITIONER
V.
UNITED STATES OF AMERICA, RESPONDENT

PROOF OF SERVICE

I, Michael T. Lee, do swear or declare that on this date, February __, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI
on each party to the above proceedings or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.

The names and addresses of those served are as follows:
Elizabeth Prelogar

Acting Solicitor General

U.S. Department of Justice

950 Pennsylvania Ave NW
Washington, DC 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 22, 2021 Wel e

Michael T. Lee
